                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




         EVALUATION OF THE CORPORATION’S
                COMPLIANCE WITH
        IMPROPER PAYMENTS ELIMINATION AND
              RECOVERY ACT (IPERA)

                     OIG REPORT 12-10




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on March 7, 2012. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than September 7, 2012 and complete its corrective actions by March 7, 2013.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                   Office of Inspector General


                                 NATIONAL&:
                                 COMMUNITY
                                 SERVICE ~......

                                         March 7,2012

TO:           Doug Hilton
              Acting Chief Financial Officer

FROM:         Stuart Axenfeld    ~ .A~
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (DIG) Report 12-10: Evaluation of the Corporation's
              Compliance with Improper Payments Elimination and Recovery Act (lPERA)


Attached is the final report on the DIG's Evaluation of the Corporation's Compliance with
Improper Payments Elimination and Recovery Act (IPERA). This evaluation was performed by
OIG staff in accordance with the Quality Standards for Inspection and Evaluation.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by September 7, 2012. Notice of final action is due by March 7, 2013.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.

Attachment

cc:   Robert Velasco II, Acting Chief Executive Officer
      Kim Mansaray, Acting Chief Operating Officer
      Stu Graff, Team Leader, Internal Control and Analysis Team




                   1201 New York Avenue, NW    *        *
                                                Suite 830  Washington, DC 20525
                      202-606-9390 *                     *
                                     Hotline: 800-452-8210  www.cncsoig.gov

                       Senior Corps * AmeriCorps * Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Evaluation Conclusions ...................................................................................................... 1

Results of Evaluation ......................................................................................................... 2

Objectives, Scope, and Methodology ................................................................................. 4

Background ........................................................................................................................ 5

Exit Conference .................................................................................................................. 6

Corporation Response ....................................................................................................... 6

OIG Comment .................................................................................................................... 6


Appendix

A: Corporation’s Response to Draft Report


                                                    TABLE OF ACRONYMS

                        AFR          Agency Financial Report
                        FY           Fiscal Year
                        IPERA        Improper Payments Elimination and Recovery Act
                        OIG          Office of Inspector General
                        OMB          Office of Management and Budget
                        VISTA        Volunteers in Service To America
                                       EXECUTIVE SUMMARY

In response to the President’s July 2010 mandate on implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Office of Inspector General (OIG),
Corporation for National and Community Service (Corporation) performed an evaluation
of the Corporation’s compliance with IPERA. An improper payment is defined as any
payment that should not have been made or that was made in an incorrect amount, any
payment to an ineligible recipient or for ineligible goods or services, any duplicate
payment, any payment for goods or services not received, or any payment that does not
account for credit for applicable discounts.1    Office of Management and Budget (OMB)
guidance also instructs agencies to report as improper payments of any payments for
which insufficient or no documentation was found.

The objective of our evaluation was to determine whether the Corporation performed its
improper payment assessment in compliance with IPERA, applicable Executive Orders,
and the OMB guidance. The evaluation was conducted in accordance with the Quality
Standards for Inspection and Evaluation issued by the Council of the Inspectors General
on Integrity and Efficiency.

Federal agencies reported an estimated $115.3 billion in improper payments in Fiscal
Year (FY) 2011. The Corporation reported in its FY 2011 Agency Financial Report
(AFR) improper payments of $2.14 and projected estimated improper payments of
$3,947. We found that the Corporation reporting of its improper payment assessment in
the AFR is in compliance with the reporting requirements prescribed by IPERA.
However, we believe that its improper payment estimate of $2.14 is underestimated and
unreliable, based on the following findings:

     1. A key attribute for testing improper payment was removed from the testing work
        papers and was not tested or considered in assessing improper payments; and

     2. The Corporation’s efforts to estimate improper payments did not address all
        known weaknesses.


                                    EVALUATION CONCLUSIONS

The Corporation’s reporting of its improper payment assessment in the AFR is in
compliance with the reporting requirements prescribed by IPERA; however, we believe
the Corporation did not perform adequate testing to obtain reliable and reasonable
results of improper payment estimates. The Corporation’s mechanism used to review
and evaluate improper payment is incomplete and needs to be refined. We found that
the Corporation’s testing procedures for improper payments excluded a key attribute to
test that payments have been expended for the intended purpose of the AmeriCorps
Volunteers in Service To America (VISTA) and National Trust Service agreements.
According to the Corporation, this vital attribute was eliminated due to lack of resources
to perform the required planned procedures. The Corporation tested a total of 1,072
payment samples which we considered inefficient. The sample size was too large to
allow for sufficient testing procedures considering the limited resources.
                                                            
1
 OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C. Requirements for
Effective Measurement and Remediation of Improper Payments, April 14, 2011.
                                                   1
In addition, the Corporation’s efforts to estimate improper payments did not address all
known weaknesses. Specifically, it did not incorporate improper payments identified in
OIG audit and investigative reports in its evaluation of improper payments. OIG audits
and investigations have consistently identified internal control weaknesses that have
resulted in improper payments. For example, we reported more than $200,000 in
improper payments of the National Service Trust over the span of period the Corporation
conducted its assessment.

The Corporation reported on its FY 2011 AFR of improper payments of $2.14 and
projected estimated improper payments of $3,947. These totals are in significant
contrast to the more than $200,0002 in improper payments identified by the OIG. The
Corporation reported finding no improper payment errors in its testing of the National
Service Trust.   As a result of this discrepancy and the omission of the key attribute that
was not tested, we do not place high level of confidence in the reliability of the results of
improper payments estimates reported in the AFR.

We believe the Corporation’s testing procedures was not sufficiently comprehensive to
produce reliable estimates. We recommend that the Corporation:

             Refine the testing plan to include attributes to verify that the Corporation did not
              make payments for unintended and unallowable activities. It is efficient to
              incorporate this type of testing in the internal control structure used to manage
              high-risk programs;

             Ensure that the sample size utilized to analyze improper payments will enable
              sufficient and comprehensive testing;

             Implement effective testing procedures to completely and accurately identify the
              full extent of improper payments by capturing improper payments identified in
              OIG audits and investigations; and

             Utilize existing Corporation monitoring tools, including quarterly reviews, internal
              control reviews, and grantee/subgrantee monitoring reviews, to enhance the
              process of identifying and recovering improper payments.


                                                               RESULTS OF EVALUATION

Finding 1.               A key attribute for testing improper payment was removed from the
                         testing work papers and was not tested or considered in assessing
                         improper payments.

The testing procedures conducted by the Corporation were not adequate to obtain a
reasonable and reliable improper payment estimate. For example, the Corporation
                                                            
2
  This amount represents questioned cost incurred during the time span the Corporation conducted the
IPERA evaluation. This amount is not statistically projected and is the actual cumulative amount, derived
from a few FY 2011 OIG audit reports, representing FY 2010 disbursements relating to education awards.
The Corporation is yet to provide management decisions on this amount. The OIG audits were conducted in
accordance with generally accepted government auditing standards.
                                                                        2
improperly removed a key attribute to verify that payments have been expended for the
intended purpose of the AmeriCorps VISTA program and National Service Trust. This
removed attribute is “verify that payments were used for the intended purpose.” We
consider the removed attribute crucial in determining unallowable activities. We first
noted the Corporation included the now-removed attribute in the IPERA draft report that
was submitted to the OIG. The draft IPERA report was developed and prepared by the
contracted consultants and they documented the attribute in question as “unable to test.”
The OIG met with the consultants upon noticing the untested attribute and inquired why
it was not tested. We were initially informed by the consultants that they were restricted
by the Corporation to perform testing specifically related to that attribute, and were later
informed by the consultants that the reason was due to lack of resources. The
Corporation tested a total of 1,072 payment samples, in which we considered inefficient.
The sample size was too large and impractical to allow for sufficient testing procedures
considering the limited resources. Before the consultants issued the final IPERA report,
we notified the Corporation and expressed our concerns that we considered the
particular attribute as crucial in determining improper payment estimates. However, all
references related to the discussed attribute was removed from the final IPERA report,
as well as supporting documentation, without any explanation for the exclusion from
testing procedures.

The consultants informed us that they reviewed grantees’ progress reports to identify
unallowable activities in lieu of performing the removed attribute. Based on this review,
they found no improper payments. However, we believe it is unlikely that grantees
would self-report violations of the terms and conditions of grants in their own progress
reports. Therefore, we consider their alternative procedure performed in lieu of testing
the attribute inadequate and insufficient.

Without testing this important attribute, the improper payments estimate reported by the
Corporation in its FY 2011 AFR is incomplete and unreliable. As we will reveal in
Finding 2, we believe the improper payment of $2.14, as identified by the Corporation, is
understated due to the limitations in the testing procedures performed. Overall, it
appears the Corporation has understated the magnitude of improper payments in its
high-risk programs.

Recommendations

We recommend that the Corporation:

   1a. Refine the testing plan to include attributes to verify that the Corporation did not
       make payments for unintended and unallowable activities. It is efficient to
       incorporate this type of testing in the internal control structure used to manage
       high-risk programs; and

   1b. Ensure that the sample size utilized to analyze improper payments will enable
       sufficient and comprehensive testing.

Finding 2.   The Corporation’s efforts to estimate improper payments did not
             address all known weaknesses.

We found that the Corporation’s efforts to estimate improper payments did not address
all known weaknesses. The Corporation did not incorporate the improper payments
                                           3
identified in OIG audits and investigations in its overall improper payments evaluation.
During our review of supporting documentation and interviews we had with the
consultants, we found that the Corporation reviewed audit reports issued by the OIG.
However, the Corporation did not perform a comprehensive analysis of the improper
payments amounts identified in those reports. Based on the supporting documentation
provided by the Corporation, only OIG audit and investigative reports issued in FY 2010
were reviewed. OIG reports issued in FY 2010 mainly reported improper payments
identified in prior periods that were not within the scope of the Corporation’s IPERA
assessment. OIG reports for FY 2011 did identify improper payments within the scope
of the Corporation’s IPERA assessment, but there was no evidence that those reports
were reviewed by the Corporation.

We performed an analysis of improper payment amounts identified in OIG reports for
AmeriCorps VISTA and National Service Trust disbursements. We found that we
reported questioned costs3 of over $200,000 incurred over the span of time (from
October 2009 to September 2010) the IPERA assessment was conducted. In our
discussions with the Corporation personnel, we learned that OIG’s identified questioned
costs were not incorporated in the Corporation’s IPERA assessment. Therefore, we
believe the Corporation’s assessment of improper payments is incomplete and
understated.

Recommendations

We recommend that the Corporation:

       2a.        Implement effective testing procedures to completely and accurately identify
                  the full extent of improper payments by capturing improper payments identified
                  in OIG audits and investigations; and

       2b.        Utilize existing Corporation monitoring tools, including quarterly reviews,
                  internal control reviews, and grantee/subgrantee monitoring reviews, to
                  enhance the process of identifying and recovering improper payments.


                                                OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted this evaluation in accordance with the Quality Standards for Inspection
and Evaluation issued by the Council of the Inspectors General on Integrity and
Efficiency.

Our objective was to determine whether the Corporation performed its improper payment
assessment in compliance with IPERA, applicable Executive Orders, and OMB
guidance. 

We performed our evaluation from August 2011 to February 2012. Our evaluation
entailed a review and assessment of the Corporation’s efforts in determining and
reporting improper payments. We conducted interviews with the consultants to obtain
                                                            
3
  A questioned cost is an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds or a finding that, at the time
of testing, includes costs not supported by adequate documentation.
                                                                4
an understanding of the work they performed. We requested, obtained, and reviewed
their draft and final reports and supporting documentation to ensure that the
methodology and testing procedures used to assess improper payments was
reasonable, sound, and reliable. The Corporation reviewed and tested payments made
between October 1, 2009 and September 30, 2010.

In addition, we reviewed our relevant audit and investigation reports to assess the
amount of questioned costs that should have been considered and included in the
Corporation’s overall improper payment assessments. We also reviewed applicable
laws and regulations (such as OMB Circular A-123, Appendix C, the IPERA [Public Law
111-204], the OMB Memorandums M-11-04, M-11-16, and Executive Order 13520), and
the Corporation’s FY 2011 AFR.

We conducted our evaluation at the Corporation’s headquarters in Washington, DC.
We interviewed the consultants that performed the test work regarding their
methodology, results of risk assessments, and testing procedures and results. The
interviews were conducted in person at the Corporation’s headquarters. In addition, we
reached out to Corporation’s personnel to express our preliminary concerns on the
testing attributes and exclusion of OIG’s improper payments in the Corporation’s overall
improper payment assessment.


                                     BACKGROUND

To implement the goal of reducing wasteful improper payments, the President signed
IPERA into law in July 2010. IPERA amended the Improper Payments Information Act
of 2002. IPERA requires agencies to identify programs or activities that are susceptible
to significant improper payments, conducting a risk assessment, perform testing of
programs considered high risk, testing a sample of transactions, determining the
estimated amount of improper payments, and develop and implement corrective actions
plans for high risk programs. Improper payments may result from inadequate
recordkeeping, inaccurate eligibility determinations, inadvertent processing errors, the
lack of timely and reliable information to confirm payment accuracy, or fraud.  OMB
Circular A-123, Appendix C, provides guidance to Federal agencies on implementing
IPERA which reinforces significant reliance on internal controls. As stated in the
Government Accountability Office’s testimony before the “Subcommittee on Government
Organization, Efficiency, and Financial Management, Committee on Oversight and
Government Reform, House of Representatives” on  February 7, 2012, implementing
strong preventive controls can help defend against improper payments, increasing public
confidence and avoiding the difficult “pay and chase” aspects of recovering improper
payments. Preventive controls involve activities such as upfront validation of eligibility
using electronic data matching, predictive analytic tests, and training programs.

In recent years, the Federal government has made eliminating improper payments a
focal point targeting reduction in fraud, waste, and abuse. IPERA requires the following:

      Increased transparency and intensified agency efforts in preventing, identifying,
       and recovering payment errors within Federal spending;



                                            5
   •   Agencies annually identify programs and activities susceptible to improper
       payments, estimate the annual amount of improper payments and submit the
       estimate to the President and Congress. Agencies are to include the estimates
       in their AFR; and

   •   Inspector General review their agency's improper payment reporting in the AFR
       and report on the agency's compliance.

The Office of the Chief Financial Officer is responsible for reporting on the Corporation's
compliance with IPERA. The Corporation contracted with a consulting firm to conduct
improper payment testing on programs deemed to be of the highest risk. As stated in
the FY 2011 AFR, the Corporation based its risk assessment on a payment risk criteria
matrix, including factors such as internal controls over financial processing, internal
monitoring and assessments, human capital turnover, programmatic complexity and size
of payments. The Corporation selected payments from the AmeriCorps VISTA program
as well as payments from the National Service Trust for the FY 2011 IPERA reporting.
The scope of the payments was made between October 1, 2009 and September 30,
2010. For FY 2010, the AmeriCorps VISTA and the National Service Trust reported
Federal outlays of about $119 million. The Corporation reported one improper payment
of $2.14 based on the testing procedures it performed. The $2.14 improper payment
discovered was used to statistically project $3,947 of improper payments made by the
Corporation in FY 2010. The Corporation tested a total of 1,072 payment samples.

                                    EXIT CONFERENCE

We discussed the contents of this dra~ report with Corporation representatives at an exit
conference on February 23, 2012. We summarized the Corporation's response to the
draft report below and included its response, in its entirety, as Appendix A.

                                CORPORATION RESPONSE

Corporation management acknowledged the findings and recommendations in the draft
report and stated that it conducted the first two IPERA assessments through a
contractor, and that the results of the second assessment will be reported in the FY 2012
AFR. The Corporation stated that it is in the process of awarding a new contract for
IPERA assessment. The Corporation plans to discuss results of our report with the new
contractor and our recommendations will be considered in planning future IPERA
assessments.

                                      OIGCOMMENT

The Corporation's planned actions satisfy the intent of our recommendations. The
Corporation should reassess results of the second IPERA assessment, which will be
reported in the FY 2012 AFR, based on recommendations from this evaluation report.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service
                                            6
                 Appendix A

    Corporation’s Response to Draft Report

 




                      7
NATIoNAL&
COMMUNITY - - - -- - - -- - - --
St.RV ICE ......-


       To:             Stuart Axenfeld, Assista 1t Inspector General for Audit

       From:       C:::ZU=;;?aSrH~l"            tlllg Chief Financial Ollicer

       Date:           March 6, 201 2

       Subject:       . Response to OIG Draft Report: Evaluation of the Corporation's Compliance with
                        Improper Payments Elimination and Recovery Act (IPERA )

       Thank you for the opportunity to review the February 27, 2012, draft report on the aIG
       evaluation or the Corporation's Compliance with Improper Payments Elimination and Recovery
       Act (lPERA). Your re,port concludes that CNCS' report on its assessment of the extent of
       improper payments in its FY 2011 Annual Financial Report was in compliance with the
       requirements of IPERA. The draft report also included two findings and a number of
       recommendations to improve CNCS's future testing for improper payments.

       CNCS conductcd its fi rst two assessments under IPERA through a contract with Grant Thornton.
       'r'hat contract is completed, and the results of the second assessment (covering payments under
       the AmeriCorps State and National and Senior Corps programs) will be included in CNCS' FY
       2012 Annual Financial Report. The draft OIG repOli includes a number of recommendations to
       improve CNCS' future IPERA assessments. CNCS is in the process of awarding a new contract
       for JPERA assessments. O(lce a new contract is in place, CNCS will discuss the results of the
       aIG review with the contractor and ask that the OIG's recommendations be considered in
       planning the IPERA a Sess.;ments, consistent with the req uirements of Office and Management
       and Budget Circular A-l 23, Appendix C.


       cc:     Kim Mansary, Acting Chief Operating Officer
               Stu Graff, Director of Intcma1 Control and Analysis




                      .   Senior Corps     *   AmcriCorps      *   Learn and Serve America
             1201 Ncw York Ave nuc, NW   * Washington, ()C 20,} 2'5 * 20L-60(,-'JOOO * www,n ationalserv icc'gov
